  OFFICE OF JUSTICE PROGRAMS
 NATIONAL LAW ENFORCEMENT AND
CORRECTIONS TECHNOLOGY CENTERS
        U.S. Department of Justice
      Office of the Inspector General
               Audit Division

           Audit Report 07-22

               March 2007
             OFFICE OF JUSTICE PROGRAMS
      NATIONAL LAW ENFORCEMENT AND CORRECTIONS
                 TECHNOLOGY CENTERS

                             EXECUTIVE SUMMARY

       The Office of the Inspector General, Audit Division, has completed an
audit of the National Law Enforcement and Corrections Technology Centers
(NLECTC) program. Established in 1994, the program was created to
provide a mechanism for facilitating the introduction of new technologies
into the law enforcement community and to provide technical assistance to
state and local law enforcement in implementing those technologies.1 The
NLECTC program is comprised of 10 technology centers and specialty offices
located throughout the country.2

      The NLECTC program is managed by the Office of Justice Program’s
(OJP) National Institute of Justice (NIJ), which is the research, development,
and evaluation arm of the U.S. Department of Justice. The NIJ’s mission is
to advance scientific research, development, and evaluation to enhance the
administration of justice and public safety. In fiscal years (FY) 2004 and
2005, Congress allocated $33.3 million and $30.2 million, respectively, to
fund NLECTC operations.

      In this audit, we tested the NLECTC program’s accounting records to
determine whether reimbursements claimed for award-related costs were
allowable, supported, and in accordance with applicable laws, regulations,
guidelines, and terms and conditions of the awards. The OJP awarded
NLECTC funds using cooperative agreements and interagency agreements.
The mechanism used to award funds is determined by the nature of the
receiving entity. Cooperative agreements, which have terms and conditions
similar to grants, were used for private organizations and non-federal
       1
           As used in this context, the term “law enforcement community” refers to state and
local police departments, local jails, and state correctional facilities.
       2
         The 10 sites include NLECTC-National, located in Rockville, MD, which serves as
the hub for 5 regional centers: NLECTC-Northeast, located in Rome, NY; NLECTC-
Northwest, located in Anchorage, AK; NLECTC-Rocky Mountain, located in Denver, CO;
NLECTC-Southeast, located in North Charleston, SC; and NLECTC-West, located in El
Segundo, CA. In addition, there are four specialty sites, which include the Border Research
Technology Center (BRTC), located in San Diego, CA; the Office of Law Enforcement
Standards (OLES), located in Gaithersburg, MD; the Office of Law Enforcement Technology
Commercialization (OLETC), located in Wheeling, WV; and the Rural Law Enforcement
Technology Center (RULETC), located in Hazard, KY. For the purposes of this report, the
term “centers” is used in reference to all of the NLECTC components, including the six
technology centers, two specialty centers, and two specialty offices.


                                            -i-
agencies, while federal agencies were funded through interagency
agreements, which more closely resemble a contract. We tested a sample of
financial transactions at the five regional technology centers and the RULETC
specialty office. We did not select sample transactions at the National
Center and the OLES because, unlike the regional technology centers and
the RULETC specialty center, these sites do not provide direct technical
assistance to the law enforcement community. At each center, we obtained
accounting records for the expenditures charged to the awards issued during
the review period. From these accounting records, we judgmentally selected
a minimum sample of 25 transactions at each site. We then reviewed
supporting documentation to verify that the expenditures were authorized,
properly classified, accurately recorded, and properly charged to the award.
Our sample included expenditures for personnel, travel, consultants,
contractors, other direct costs, and indirect costs.

      Of $43 million in NLECTC funds expended from October 2003 through
June 2005, we tested transactions totaling $2.6 million. In our testing, we
noted several weaknesses, as follows:

     •   We identified $472,069 in award-related expenditures for personnel
         costs and payments to contractors that were not adequately
         supported.

     •   We also identified $224,936 in expenditures that we determined to
         be unallowable, most of which resulted from an over-billing of
         indirect costs for the RULETC operation.

     •   Finally, we noted the appearance of a potential conflict of interest
         involving staff members at the NLECTC-Rocky Mountain operation
         in Denver, Colorado. Specifically, several employees had private
         businesses that offered the same products and services that they,
         as NLECTC employees, were responsible for evaluating in their role
         in advising local law enforcement on the use or acquisition of
         available technologies.

      Our audit report contains three recommendations to address the
weaknesses identified. Specifically, we recommended that the OJP require
the NIJ to remedy the $472,069 in unsupported costs and $224,936 in
unallowable costs. In addition, we recommended that NIJ program
management review the activities of center staff at NLECTC-Rocky Mountain
to determine whether a conflict of interest exists with regard to staff
involvement in for-profit crime-mapping businesses. We discussed the
results of our audit with NLECTC and NIJ officials, and their comments are
included in this report, where appropriate.


                                    - ii -
                               TABLE OF CONTENTS

INTRODUCTION ................................................................................ 1

    Background ...................................................................................3

FINDINGS AND RECOMMENDATIONS................................................ 7

 COMPLIANCE WITH AWARD REQUIREMENTS ................................. 7

    Award Expenditures ........................................................................ 7

    Potential Conflict of Interest ........................................................... 11

    Recommendations ........................................................................ 13

APPENDICES:

APPENDIX I          - OBJECTIVE, SCOPE, AND METHODOLOGY .............. 14

APPENDIX II - SCHEDULE OF DOLLAR-RELATED FINDINGS .......... 15

APPENDIX III - OVERVIEW OF NLECTC OPERATIONS ..................... 16

APPENDIX IV - AUDITEE’S RESPONSE ........................................... 17

APPENDIX V          -OFFICE OF THE INSPECTOR GENERAL,
                     AUDIT DIVISION SUMMARY OF ACTIONS
                     NECESSARY TO CLOSE REPORT .............................. 20
                OFFICE OF JUSTICE PROGRAMS
              NATIONAL LAW ENFORCEMENT AND
             CORRECTIONS TECHNOLOGY CENTERS

                            INTRODUCTION

      The Office of the Inspector General (OIG), Audit Division, has
completed an audit of the National Law Enforcement and Corrections
Technology Centers (NLECTC) program. Established in 1994, the NLECTC
program was created to provide a mechanism for facilitating the introduction
of new technologies into the law enforcement community and to provide
technical assistance to state and local law enforcement in implementing
those technologies.

       The NLECTC program is managed by the Office of Justice Program’s
(OJP) National Institute of Justice (NIJ), which is the research, development,
and evaluation agency of the U.S. Department of Justice. The NIJ’s mission
is to advance scientific research, development, and evaluation to enhance
the administration of justice and public safety.

      There are over 18,000 police departments in the United States, 50
state correctional systems, thousands of prisons, jails, parole and probation
departments, and other public safety organizations. Although the law
enforcement community relies on various technologies to accomplish its law
enforcement functions, not every law enforcement organization is
knowledgeable about the latest technologies and whether those technologies
will meet its needs.

      According to NIJ officials, one of the NIJ’s roles is to facilitate the
movement of technological advances from the laboratories to law
enforcement. To accomplish this, the NIJ established a network of centers
located throughout the country to provide assistance to state and local law
enforcement by supporting research and development of new technologies
and providing information and technical assistance on existing technologies.
The NLECTC program is comprised of 10 such centers, including a central
hub, 5 regional technology centers, and 4 specialty sites. NLECTC-National,
located in Rockville, Maryland, serves as the hub for the five regional centers
(NLECTC-Northeast, -Northwest, -Rocky Mountain, -Southeast, and -West)
that are located throughout the United States. The four specialty sites
include the Border Research Technology Center (BRTC), the Office of Law
Enforcement Standards (OLES), the Office of Law Enforcement Technology
Commercialization (OLETC), and the Rural Law Enforcement
Technology Center (RULETC).3 The map below shows the location and
region for each of the 10 centers.

                                NLECTC FACILITIES




      Source: National Institute of Justice

      To facilitate the use and adoption of technologies by law enforcement
agencies, the centers offer a wide array of training and technical assistance
to local law enforcement in the areas of forensics, body armor, audio
analysis, communications, crime mapping, and less-lethal technology. With
regard to competing technologies developed by the private sector and
marketed to law enforcement agencies, the centers tout as one of their
central tenets their role as “honest brokers” in evaluating the relative merits
of those products. The centers also serve to facilitate research and
development activities through their close relationship with their various
“host” agencies.

      The technology centers are not standalone operations. Instead they
are “hosted” by either a private organization or governmental agency. In
general, the host organizations were selected based on the need for
technical expertise in a particular area. While more than one center may be
involved in a particular technology, each site has a distinct focus area,
depending in large part on the expertise of the host organization (see
Appendix III). Most of the centers are staffed by professionals from the host
agency, which allows for unique access to those agencies’ vast resources.
NLECTC-West, for example, is staffed by its host agency, the Aerospace
Corporation, and thus is able to leverage the agency’s human and

      3
          See Appendix III for more information on each NLECTC location.
                                              -2-
technological assets for research and development and adapting new or
existing technologies for use in law enforcement activities.

       These host agencies receive funding through a cooperative agreement
or interagency agreement from OJP to staff and operate the NLECTC sites.
The funding mechanism is determined by the nature of the entity receiving
the funds. Private organizations and non-federal agencies are funded
through cooperative agreements, while federal agencies are funded through
interagency agreements.4 With the exception of the RULETC site, the
centers are co-located with their respective host organization.5

       The objective of this audit was to ensure that the centers are using NIJ
funds awarded through cooperative agreements and interagency agreements
in accordance with the award requirements and other applicable regulations.
To achieve the objective, we tested the NLECTC program’s accounting
records at six of the eight NLECTC sites visited to determine whether
reimbursements claimed for award-related costs were allowable, supported,
and in accordance with applicable laws, regulations, guidelines, and terms
and conditions of the awards. We selected only those sites in which NLECTC
staff provided direct assistance to the law enforcement community.6

Background

      The Homeland Security Act of 2002 defines the purpose of the NLECTC
program in Section 235, National Law Enforcement and Corrections
Technology Centers, which states that “the purpose of the centers shall be
to: (1) support research and development of law enforcement technology;
(2) support the transfer and implementation of technology; (3) assist in the
development and dissemination of guidelines and technological standards;
and (4) provide technology assistance, information, and support for law
enforcement, corrections, and criminal justice purposes.”7


       4
         Cooperative agreements are similar to grants in that they are fairly uniform and
contain the same reporting requirements and special conditions as grants. Interagency
agreements are closer to contracts in structure and may differ from one to the next in
reporting requirements and other conditions, depending on the agency and the nature of
the work performed.
       5
         The RULETC operation is located in Hazard, KY, approximately 100 miles from its
host organization, the Eastern Kentucky University in Richmond, KY.
       6
         We reviewed financial activity at the following NLECTC sites: NLECTC-Northeast in
Rome, NY; NLECTC-Northwest in Anchorage, AK; NLECTC-Rocky Mountain in Denver, CO;
NLECTC-Southeast in North Charleston, SC; NLECTC-West in El Segundo, CA; and RULETC
in Hazard, KY, and Richmond, KY.
       7
           Pub. L. No. 107-296 (2002).
                                           -3-
      To accomplish this mission, the NIJ established the following five goals
for NLECTC:

      •   be the source of independent, objective standards, information, and
          evaluation of criminal justice technologies;

      •   facilitate the introduction, evaluation, implementation, and
          commercialization of appropriate technologies;

      •   adapt existing technologies to new applications for the criminal
          justice community;

      •   identify technologies to enhance the effectiveness of criminal justice
          agencies responsible for securing our nation’s borders; and

      •   fill critical technology information gaps throughout the criminal
          justice community.

      The following is a brief discussion of the activities performed by
NLECTC program operations. For the most part, these activities include
technical assistance, testing and evaluation, and commercialization.

      Testing and Evaluation. Through NIJ, OLES publishes minimum
performance standards for equipment used by law enforcement and
corrections agencies, such as patrol vehicles and bullet-resistant body
armor. OLES oversees the development of such standards based on
research it conducts.

       NLECTC-National oversees the testing of law enforcement equipment
by private laboratories. These laboratories test equipment provided
voluntarily by manufacturers on either a comparative basis or on a pass or
fail basis. For example, the Michigan State Police, in coordination with
NLECTC, conducts an annual evaluation of vehicles produced by automobile
manufacturers for use as patrol cars. Evaluation factors include a
comparative analysis of acceleration, top speed attained, braking, and
handling under simulated pursuit conditions, as well as ergonomics and ease
of equipment installation. In the case of pass or fail analysis, equipment
such as bullet-resistant body armor is tested to see if it meets minimum
performance standards.

      The NIJ recently directed the OLES to conduct an in-depth analysis of
     ®
Zylon -based body armor. The study was requested by the U.S. Attorney
General in the wake of the wounding of a police officer in the line of duty
after his body armor failed to stop a bullet fired during a drug-related arrest.
In addition to bullet-resistant body armor studies, OLES also conducts

                                      -4-
research and develops standards for stab-resistant body armor, semi-
automatic pistols, walk-through metal detectors, and metallic handcuffs.

      Technology Assistance. The NIJ identifies technology assistance as a
core activity of the NLECTC program. On average, NLECTC receives about
500 requests for general assistance every month, the majority of which
involve the dissemination of information and publications such as the annual
analysis of patrol vehicles mentioned above.

       In addition to the dissemination of information, the centers also
provide “hands-on” assistance through what NLECTC terms “scientific and
engineering advice and support.” This often involves lending expertise in
assisting local law enforcement with solving or prosecuting open criminal
cases. For example, on March 18, 2004, the Federal Bureau of Investigation
and local law enforcement personnel in Las Vegas, Nevada, arrested an
individual for a string of shootings and one death in the Columbus, Ohio,
area. NLECTC-Southeast assisted in the arrest and prosecution of the sniper
by deploying a state-of-the-art gunshot location system.

      In another case, NLECTC-Northeast provided technical assistance in
the form of audio analysis to a local police department in Ohio to assist in
entering a murder suspect’s confession into evidence. The defendant’s
attorney had attempted to suppress the taped confession based on the fact
that the reading of the defendant’s rights was not audible on the tape.
However, NLECTC-Northeast, through audio analysis, was able to confirm
that the defendant had been read his rights, and the taped confession was
allowed into evidence.

       In a third case, NLECTC-West assisted local law enforcement in the
apprehension of two suspects in the kidnap and rape of a college student.
In this case, a security video camera had captured the suspects’ license
plate when they attempted to make an ATM withdrawal from the victim’s
account. The image of the license plate was not initially readable, but center
staff members were able to extract six of the characters through video
enhancing technology, which led to the suspects’ arrest.

      Technology assistance may also take the form of hands-on training,
such as mock prison riots conducted annually in the former West Virginia
Penitentiary in Moundsville. The mock prison riots are hosted by the NIJ in
coordination with NLECTC’s Office of Law Enforcement Technology
Commercialization (OLETC) and the NLECTC-National. The purpose of the
annual event is to showcase emerging corrections and law enforcement
technologies and to give corrections officers and tactical team members an
opportunity to use and evaluate emerging technologies in riot-training
scenarios. According to NLECTC, corrections officials from state, local, and

                                    -5-
federal institutions, as well as officials from other countries, have attended
the event.

       Commercialization. According to the NIJ, OLETC is responsible for
bringing the research community and private industry together to put
affordable technologies into the hands of public safety officials. Toward that
end, OLETC has a dedicated staff of law enforcement and corrections
professionals, product managers, engineers, and market research specialists
who identify new product concepts and help get them manufactured and
distributed. Examples of products introduced to the law enforcement
community through the OLETC’s efforts include: (1) Roadspike, a
retractable barrier strip used to stop fleeing vehicles; (2) EyeCheck, a non-
invasive drug detection device; (3) Gimble Glove, which provides puncture-
resistant protection for public officers; and (4) Tiger Vision, a handheld
infrared night vision system.




                                     -6-
                 FINDINGS AND RECOMMENDATIONS

                COMPLIANCE WITH AWARD REQUIREMENTS

       Out of the $2.6 million in expenditures that we reviewed, we
       identified $472,069 that was not adequately supported and
       $224,936 in unallowable expenditures. Most of the unsupported
       and unallowable expenditures were at the RULETC in Hazard,
       Kentucky, and its host agency, the Eastern Kentucky University
       in Richmond, Kentucky. In addition, we identified the
       appearance of a potential conflict of interest at the Rocky
       Mountain NLECTC site involving staff engaged in for-profit
       businesses that offered the type of products and services
       evaluated by that NLECTC site.

Award Expenditures

      We analyzed expenditures charged against the NIJ awards at six of the
eight sites visited to determine whether expenses charged were allowable
and in compliance with award conditions.8 From October 1, 2003, through
June 30, 2005, expenditures for the six sites reviewed totaled approximately
$43 million, of which we tested 156 transactions totaling $2.6 million. At
each center, we obtained accounting records for the expenditures charged to
the awards during the review period. From the accounting records we
judgmentally selected a minimum sample of 25 transactions at each site.
We then reviewed supporting documentation to verify that the expenditures
were authorized, properly classified, accurately recorded, and properly
charged to the award. Our sample included expenditures for personnel,
travel, consultants, contractors, other direct costs, and indirect costs.

     As a result of our transaction testing, we questioned a total of
$697,005 in award-related expenditures, of which $472,069 was not
adequately supported and $224,936 was unallowable, as shown in the table
below.




       8
          We did not select sample transactions at the NLECTC-National and the OLES
locations because these two locations do not provide direct technical assistance to the law
enforcement community, as do the regional technology centers and the RULETC specialty
center.
                                            -7-
                     RESULTS OF TRANSACTION TESTING
                  DOLLARS                                      TOTAL
   CENTER         AUDITED    UNSUPPORTED     UNALLOWABLE     QUESTIONED     DESCRIPTION

  Northeast   $    138,553     $        0      $        0     $        0

  Northwest        377,031              0               0              0
  Rocky                                                                     Travel/
                   225,564           5,494          12,986         18,480   Consultant
  Mountain

  Southeast        927,613              0               0              0

  West              69,280              0               0              0

                                                                            Travel,
                                                                            Gifts,
  RULETC           868,139         466,575         211,950        678,525   Personnel,
                                                                            Indirect
                                                                            Costs
   TOTAL      $2,606,180       $472,069        $224,936       $697,005
      Source: OIG analysis of NLECTC financial data

      NLECTC Northeast – We tested 25 transactions totaling $138,553 out
of total expenditures of $5.5 million for the review period. Expense
categories tested included travel, consultants’ fees, subcontractors’
expenses, and facilities and maintenance. There were no exceptions noted.

       NLECTC Northwest – We tested 25 transactions totaling $377,031 out
of total expenditures of $4.3 million for the review period. Expense
categories tested included travel, subcontractor labor costs, consultants’
fees, and office equipment. We initially identified $86,493 in unsupported
costs at the time of fieldwork. This included $37,720 in subcontractor costs
for which either no documents were found or there was no evidence that the
invoice was reviewed and approved for payment. In addition, we identified
$12,523 in travel reimbursements for a trip to St. Petersburg, Russia, by the
center director and a consultant, in which we could not verify that the
travelers actually paid for the costs claimed and reimbursed. Finally, we
identified $36,250 in monthly retainer fees paid to a contractor in which the
contract did not stipulate that a monthly retainer fee was authorized.
However, subsequent to completion of fieldwork, Chenega Technology
Services Corporation, the host organization for NLECTC-Northwest, was able
to provide documentation to support the above-mentioned costs. Therefore,
no exceptions were noted.

      NLECTC Rocky Mountain – We tested 31 transactions totaling
$225,564 out of total expenditures of $6.4 million for the review period.
Expense categories tested included domestic travel, foreign travel,
contractor payments, and consultants’ fees. We questioned $18,480, of

                                         -8-
which $5,494 was unsupported and $12,986 was unallowable. The
unsupported costs included a $5,394 payment for hotel accommodations for
an official function, for which University of Denver officials could not produce
an invoice to support the payment. The unallowable costs of $12,986
included $11,786 in consultants’ fees in excess of the allowable rate, $630 in
per diem in excess of allowable rates for foreign travel, and $445 for a bus
rental used for a non-official function. We solicited comments from the
director at the time of fieldwork, and again prior to issuance of the draft
report. On both occasions, the director explained that providing adequate
support for payments was the responsibility of the University of Denver’s
Office of Sponsored Programs. We discussed this issue with NIJ managers
at our exit conference in October 2006, and they expressed their concern
with NLECTC-Rocky Mountain’s response to our findings. They added that
they would follow up with the University of Denver to ensure that the issues
raised are properly addressed.

       NLECTC Southeast – We tested 25 transactions totaling $927,613 out
of total expenditures of $19.8 million for the review period. Expense
categories tested included training, equipment, and payments to
subcontractors. All transactions were adequately supported. However, we
identified $163 in unallowable travel costs. One traveler was reimbursed for
the cost of replacing a car battery. A second traveler claimed expenses for
the use of a privately owned vehicle although the traveler used a rental car
for transportation. This same traveler also claimed hotel expenses for a
5-night stay while the hotel statement showed charges for only 4 nights.
Subsequent to completion of fieldwork, NLECTC-Southeast provided
justification for the use of a privately owned vehicle and documentation to
support the per diem claimed for the 5th night at the hotel. In addition,
NLECTC-Southeast agreed that the reimbursement to replace a car battery
was not allowable and would be credited to the grant. Therefore, no
exceptions were noted.

        NLECTC West – We tested 25 transactions totaling $69,280 out of total
expenditures of $4.1 million for the review period. Expense categories
tested included travel, training, consultants’ fees, and office equipment. We
initially identified $506 in unallowable consultant’s fees charged against the
cooperative agreement because we could not verify that NLECTC-West had
obtained prior approval to exceed the allowable rate authorized in the
award. In accordance with the OJP Financial Guide, award conditions
prohibit awardees from paying more than $450 for an 8-hour day, or $56.25
per hour, for consultant fees without obtaining prior approval from OJP. The
consultant billed and was paid $2,025 for 27 hours of work, or $75 per hour,
which resulted in $506 in excess of the allowable rate. However,
subsequent to completion of fieldwork, NLECTC West was able to provide


                                     -9-
evidence that it had obtained prior approval from OJP for the exception.
Therefore, no exceptions were noted.

       RULETC – We tested 25 transactions totaling $97,822 and an
additional $770,317 in salaries and indirect costs for a total of $868,139 out
of total expenditures of $3.2 million for the review period. Expense
categories included travel, equipment rental, and payments to contractors.
We identified $5,281 in unsupported costs, all of which were travel related.
In five individual travel reimbursements reviewed totaling $4,364, no travel
vouchers were available to support the reimbursements to the travelers. In
addition, we found no authorization to support a reimbursement of $917 for
travel expenses claimed by another traveler. We also identified $4,003 in
unallowable expenditures incurred by Eastern Kentucky University (EKU)
staff identified in the grant application as performing grant-related work on a
part-time basis. This included a $77 claim on a travel voucher for a gift and
$3,926 in consultants’ fees charged in excess of the allowable rate of $450
per day. EKU officials commented that the university was undergoing a
major transition in administrative processes and personnel at the time of our
fieldwork, which could explain why some documents were not readily
available. However, they agreed to take the necessary steps to address the
lack of supporting evidence.

      In our review of transactions for the RULETC operation, we performed
work at the host organization, EKU.9 During the course of our testing at the
university, we noted that six members of the university staff charged time
against the cooperative agreement. We expanded our testing to include
costs charged to the cooperative agreement for these individuals. In total
we identified $461,294 in charges, including salary, fringe benefits, and
related indirect costs. However, we found no supporting documentation for
these charges, such as time cards, timesheets, or work schedules that would
indicate that they spent time on RULETC activities. Therefore, we
questioned the personnel costs as unsupported.

      In addition to personnel costs, we also included in our expanded
testing a review of the $309,023 in indirect costs charged against the
RULETC operation in Hazard, Kentucky. According to the cooperative
agreement, a two-tiered indirect cost schedule was approved by OJP wherein




       9
         The RULETC specialty office is not co-located with its host organization, EKU.
According to grant documents, approximately one-half of the grant funds went to the
RULETC operation in Hazard, Kentucky, to provide technical assistance and training to rural
law enforcement agencies. The remainder of the grant funds went to EKU’s Justice and
Safety Center to fund law enforcement-related research projects.

                                          - 10 -
an indirect rate of 48 percent was established for administrative overhead
costs at Eastern Kentucky and an indirect rate of 15.7 percent was
established for the RULETC operation in Hazard, Kentucky. However, we
noted that the 48 percent rate was used to determine administrative costs
for the RULETC site. Therefore, we questioned as unallowable a total of
$207,947 in indirect costs charged against the cooperative agreement for
the RULETC operation in excess of the allowable indirect rate. Both RULETC
and EKU officials indicated that this was an oversight and that the error has
been corrected. EKU officials added that the excess funds previously drawn
down had subsequently been applied to other allowable expenses.

Potential Conflict of Interest

       The OJP Financial Guide, Part I, Chapter 3, states “In the use of
agency project funds, officials or employees of State or local units of
government . . . shall avoid any action which might result in, or create the
appearance of using his or her official position for private gain . . . [or]
affecting adversely the confidence of the public in the integrity of the
government or the program.” In the course of fieldwork conducted at the
NLECTC-Rocky Mountain operation at the University of Denver in Colorado,
we were informed that several staff members were owners and operators of
private, for-profit businesses that offered consulting services in the area of
crime analysis. In addition to consulting services, one of the staff members
also designed and marketed crime-mapping software to law enforcement
agencies. Crime analysis is one of the focuses of the NLECTC-Rocky
Mountain operation. The type of assistance provided by center staff in the
crime analysis area includes technical assistance, training on techniques and
methods used in crime analysis, and training in the use of crime-mapping
software. In addition, the center is also responsible for providing law
enforcement agencies with unbiased evaluations of crime analysis tools,
including crime-mapping software.

       We learned from one of the center’s clients, a member of the Douglas
County Sheriff’s Office, that the staff member who designs and markets
crime-mapping software was scheduled to lead several sessions on the use
of his company’s software at an International Association of Crime Analysts
(IACA) training conference in Arlington, Virginia. While the IACA conference
was not a NIJ-sponsored event, the fact that the staff member has a
financial stake in a particular product being evaluated by the NLECTC
program raises concerns about a potential conflict of interest. Moreover, the
NLECTC program claims as one of its core principles its role as an “honest
broker” in advising local law enforcement on the use or acquisition of
available technologies. Therefore, even the appearance of bias on the part
of center staff towards products that the NLECTC program is responsible for
evaluating may damage the credibility of the NLECTC program, and in so

                                    - 11 -
doing compromise its effectiveness as a trusted liaison between the law
enforcement community and private industry.

       Moreover, two of the NLECTC-Rocky Mountain staff members
previously were the subjects of conflict-of-interest allegations concerning
their respective businesses that were made by a former employee in a letter
to the Denver University Counsel dated February 25, 2001. In response to
the allegations, the University hired an independent Certified Fraud
Examiner (CFE) to conduct an investigation. In his report, dated
September 17, 2001, the CFE concluded that the allegations were without
merit. However, the report raised concerns with NIJ management, who then
requested that the OIG conduct an investigation into whether NLECTC staff
assigned to the crime-mapping program were using their grant-funded
positions to conduct private business.

       The OIG’s Report of Investigation, which was completed in February
2003, concluded that one of the staff members had inappropriately used
grant funds to subsidize outside activities related to his private business.
The report, which focused mainly on the reimbursement for travel-related
expenses, recommended that the NIJ implement stricter controls over the
authorization and reimbursement of travel expenses for that particular staff
member. Although NIJ management implemented additional controls over
the authorization and reimbursement of travel expenses, we found that
these controls were rescinded as of February 13, 2004. According to NIJ
officials, the additional controls were rescinded because they believed that
the problem had been addressed, and that the controls were no longer
necessary. Our transaction testing disclosed only minor weaknesses in the
reimbursement of travel funds, which lends support to their assertion. The
report made no recommendations regarding the potential conflict of interest.

       We discussed the conflict-of-interest issue with the NIJ program
manager responsible for overseeing the NLECTC-Rocky Mountain operation
during a meeting in December 2005. The program manager was aware of
the allegations and stated that the appearance of a conflict-of-interest could
be a cause for concern. He added that potential for conflicts of interest was
particularly problematic at NLECTC-Rocky Mountain because the University
of Denver allows and even encourages employees who perform research to
be involved in private ventures, including the kind in which the two staff
members at the Rocky Mountain NLECTC were engaged.

      We again discussed this issue with NIJ managers at our exit
conference in October 2006. They reiterated their concern with the conflict-
of-interest issue, and stated that they would discuss the matter with
NLECTC-Rocky Mountain and the University of Denver to ensure that center


                                    - 12 -
staff adhere to NLECTC policy and OJP financial guidelines with respect to
conflicts of interest.

Recommendations

     We recommend that OJP:

1.   Remedy $472,069 in unsupported costs.

2.   Remedy the $224,936 in unallowable costs.

3.   Our draft report contained a recommendation concerning the
     delegation of executive authority over one of the centers. After
     additional research, we decided to remove recommendation number 3
     from the final audit report.

4.   Require NIJ program management to review NLECTC-Rocky Mountain
     practices to determine whether a conflict of interest or an
     inappropriate appearance of a conflict of interest exists, and if so, to
     ensure that proper controls are established to address such a conflict.




                                    - 13 -
                                                                 APPENDIX I

            OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

      The objective of the audit was to ensure that awardees are using funds
in accordance with the award requirements and other applicable regulations.

Scope and Methodology

      We conducted the audit in accordance with the Government Auditing
Standards and included the tests and procedures necessary to accomplish
our objective. Our review period was from, but not limited to, October 1,
2003, to September 30, 2005.

      The scope of the audit encompassed NLECTC program activity for fiscal
years 2004 and 2005. We conducted fieldwork at: (1) OJP Headquarters in
Washington, D.C.; (2) NLECTC-National in Rockville, Maryland; (3) NLECTC-
Northeast in Rome, New York; (4) NLECTC-Northwest in Anchorage, Alaska,
and Alexandria, Virginia; (5) NLECTC-Rocky Mountain in Denver, Colorado;
(6) NLECTC-Southeast in North Charleston, South Carolina; (7) NLECTC-
West in El Segundo, California; (8) the Border Research Technology Center
in San Diego, California; (9) the Office of Law Enforcement Standards in
Gaithersburg, Maryland; and (10) the Rural Law Enforcement Technology
Center in Hazard, Kentucky, and Richmond, Kentucky.

     To accomplish our audit objective we:

     •   researched and reviewed applicable laws, policies, regulations,
         manuals, and memoranda;

     •   interviewed officials at OJP and NIJ headquarters;

     •   interviewed center directors and staff at technology sites, as well as
         designated specialists from host organizations;

     •   reviewed the funding process at each of the sites;

     •   reviewed 156 expenditures totaling $2.6 million to determine
         whether transactions were accurate, complete, and allowable under
         the terms and conditions of the agreement; and

     •   reviewed $461,294 in payroll expenses for October 2003 through
         June 2005 at Eastern Kentucky University in Richmond, Kentucky,
         and $309,023 in indirect costs charged for RULETC in Hazard,
         Kentucky.
                                    - 14 -
                                                                         APPENDIX II

            SCHEDULE OF DOLLAR-RELATED FINDINGS

       QUESTIONED COSTS:10                             AMOUNT              PAGE



      Unsupported Costs                              $ 472,069                8

      Unallowable Costs                              $ 224,936                8

      TOTAL QUESTIONED COSTS                          $697,005




      10
           Questioned Costs are expenditures that do not comply with legal, regulatory, or
contractual requirements, or are not supported by adequate documentation at the time of
the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
offset, waiver, recovery of funds, or the provision of supporting documentation.

                                         - 15 -
                                                                           APPENDIX III

                 OVERVIEW OF NLECTC OPERATIONS
                                                                              FUNDING
   SITE       HOST AND LOCATION               AREA OF EXPERTISE                 TYPE
NLECTC –     Lockheed-Martin,           Body armor compliance testing,       Cooperative
National     Rockville, Maryland        outreach and publications            Agreement
             Air Force Research         Wireless communications,
NLECTC –                                                                     Inter-Agency
             Laboratory                 electronic crime, concealed
Northeast                                                                    Agreement
             Rome, New York             weapons detection
             Chenega Technology         Cold-weather technology,
NLECTC –                                                                     Inter-Agency
             Services Corporation       information sharing and analysis,
Northwest                                                                    Agreement
             Anchorage, Alaska          rural communications
NLECTC –                                Explosive remediation, crime
             University of Denver                                            Cooperative
Rocky                                   mapping, interoperable
             Denver, Colorado                                                Agreement
Mountain                                communications
             South Carolina Research
NLECTC –     Authority                  Geospatial profiling, school safety, Cooperative
Southeast    North Charleston,          integrated justice                   Agreement
             South Carolina
                                        Advanced forensic analytical
NLECTC –     Aerospace Corporation                                           Cooperative
                                        techniques, less-lethal weapons,
West         El Segundo, California                                          Agreement
                                        sensors and surveillance
             Sandia National
             Laboratories               Sensor systems, corrections
                                                                           Inter-Agency
BRTC         (U.S. Department of        technology, wireless networks, law
                                                                           Agreement
             Energy)                    enforcement near the border
             San Diego, California
             National Institute of
             Standards
                                        Standards development, body
             and Technology                                                  Inter-Agency
OLES                                    armor, ballistics, DNA technology,
             (U.S. Department of                                             Agreement
                                        chemical analysis
             Commerce)
             Gaithersburg, Maryland
             West Virginia High
                                        Technology transfer and
             Technology Consortium                                         Cooperative
OLETC                                   commercialization, demonstrations,
             Foundation                                                    Agreement
                                        mock prison riots
             Wheeling, West Virginia
             Eastern Kentucky           Rural law enforcement, distance
                                                                            Cooperative
RULETC       University11               learning, drug analysis, technology
                                                                            Agreement
             Hazard, Kentucky           evaluation




        11
         The RULETC operation is not co-located with its host organization, Eastern
Kentucky University (EKU) in Richmond, Kentucky. Instead, it is located in Hazard,
Kentucky, approximately 100 miles from the EKU campus.

                                          - 16 -
                     APPENDIX IV

AUDITEE’S RESPONSE




       - 17 -
- 18 -
- 19 -
                                                                APPENDIX V

     OFFICE OF THE INSPECTOR GENERAL, AUDIT DIVISION
     SUMMARY OF ACTIONS NECESSARY TO CLOSE REPORT

Recommendations:

1.     Resolved. In its response, the Office of Justice Programs (OJP) stated
       that by November 30, 2006, the National Institute of Justice (NIJ) will
       work with the Rural Law Enforcement Technology Center (RULETC)
       and the Rocky Mountain National Law Enforcement and Corrections
       Technology Center (NLECTC-Rocky Mountain) to remedy unsupported
       costs. This recommendation can be closed when we receive from OJP
       evidence that the proposed corrective actions have been implemented.

2.     Resolved. In its response, the OJP stated that by November 30,
       2006, the NIJ will obtain from RULETC host organization, Eastern
       Kentucky University, a request to reprogram funds in the amount of
       unallowable indirect costs charged against the grant, and will work
       with RULETC and NLECTC-Rocky Mountain to remedy the remaining
       unallowable costs. This recommendation can be closed when we
       receive from OJP evidence that the proposed corrective actions have
       been implemented.

3.     Our draft report contained a recommendation concerning the
       delegation of executive authority over one of the centers. After
       additional research, we decided to remove recommendation number 3
       from the final audit report.

4.     Resolved. In its response, the OJP stated that by November 30,
       2006, the NIJ will work with OJP’s Office of General Counsel to
       determine whether a conflict of interest or inappropriate appearance of
       a conflict of interest exists. If a problem is found to exist, NIJ will
       require the host organization, University of Denver, to establish the
       controls necessary to address the problem. This recommendation can
       be closed when we receive from OJP results of the Office of General
       Counsel’s review and evidence that proposed corrective actions, if
       warranted, have been implemented.




                                    - 20 -
